"flPftT/JOXy A*
FILED: June 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6031
(1:19-CV-00910-TSE-MSN)
ABDUL MU'MIN, f/k/a Travis Jackson Marron
Petitioner - Appellant
v.

HAROLD CLARKE, Director of Va. Dept, of Corrections
Respondent - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

'"A?P&ob'xt y
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6031
ABDUL MU’MIN, f/k/a Travis Jackson Marron,
Petitioner - Appellant,
v.
HAROLD CLARKE, Director of Va. Dept, of Corrections,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. T.S. Ellis, III, Senior District Judge. (l:19-cv-00910-TSE-MSN)
Submitted: April 14, 2020

Decided: April 22, 2020

Before GREGORY, Chief Judge, QUATTLEBAUM, and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Abdul Mu’Min, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Abdul Mu’Min seeks to appeal the district court’s order dismissing his unauthorized
successive 28 U.S.C. § 2254 (2018) petition for lack ofjurisdiction. We dismiss the appeal
for lack of jurisdiction because the notice of appeal was not timely filed.
In civil cases, parties have 30 days after the entry of the district court’s final
judgment or order to note an appeal, Fed. R. App. P. 4(a)(1)(A), unless the district court
extends the appeal period under Fed. R. App. P. 4(a)(5) or reopens the appeal period under
Fed. R. App. P. 4(a)(6). “[T]he timely filing of a notice of appeal in a civil case is a
jurisdictional requirement.” Bowles v. Russell, 551 U.S. 205, 214 (2007).
The district court entered its order on October 28, 2019. Mu’Min filed the notice of
appeal on December 4, 2019.* Because Mu’Min failed to file a timely notice of appeal or
obtain an extension or reopening of the appeal period, we dismiss the appeal.
We deny Mu’Min’s motion for bail or release pending appeal and dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
DISMISSED

* For the purpose of this appeal, we assume that the date appearing on the notice of
appeal is the earliest date Mu’Min could have delivered the notice to prison officials for
mailing to the court. Fed. R. App. P. 4(c)(1); Houston v. Lack, 487 U.S. 266, 276 (1988).
2

Case l:19-cv-00910-TSE-MSN Document 6 Filed 10/25/19 Page 1 of 3 PagelD# 61
<L"

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA

L

Alexandria Division
Travis Jackson Marron
a/k/a Abdul Mu’min,
Petitioner,
v.
Harold Clarke,

Respondent.

)
)
)
)
)
)
)
)

E

OCT 2 5 2019
CLERK, U.S. DISTRICT COURT
ALEXANDRIA, VIRGINIA

l:19cv400 (TSE/IDD)
l:19cv910 (TSE/IDD)

ORDER
Proceeding pro se. Virginia inmate Travis Jackson Marron a/k/a Abdul Mu’min has filed
two identical petitions for writs of habeas corpus pursuant to 28 U.S.C. § 2254, see [-400 Case
Dkt. No. 1; -910 Case Dkt. No. 1], and paid the filing fees, see [-400 Case Dkt. No. 6; -910 Case
Dkt. No. 4]. Because Marron has paid the filing fees, his applications for permission to proceed
in forma pauperis, see [-400 Case Dkt. No. 7; -910 Case Dkt. No. 5], are moot.
Marron seeks to challenge his 1998 convictions in Chesapeake Circuit Court for murder
and related crimes. See [-400 Case Dkt. No. 1; -900 Case Dkt. No. 1]. Marron previously
challenged these convictions in a § 2254 petition filed in 2001; this Court denied that petition,
and the United States Court of Appeals for the Fourth Circuit dismissed Marron’s appeal. See
Marron v. Angelone. No. l:01cvl 106 (E.D. Va. 2001), app. dism., No. 01-7836 (4th Cir. 2002)
(available on www.pacer.gov). In 2003, the Fourth Circuit denied Marron’s application for
authorization to file a second or successive § 2254 petition. See In re Marron, No. 03-294 (4th
Cir. 2003) (available on www.pacer.gov). And, in 2017, the Fourth Circuit denied Marron s
second application for permission to file a second or successive § 2254 petition. See In re
Marron. No. 17-432 (4th Cir. 2017) (available www.pacer.gov).

"APP6k)DTX CP
VIRGINIA:
Jn the Supreme Qewd of Vixyima field at the, Supreme Qowd Shielding in the
CUy, of, {Richmond on Monday the 18th day of. Match, 2019.

Abdul-Mu’min Marron,
f/k/a Travis Jackson Marron,
against

Appellant,

Record No. 180279
Circuit Court No. CL17-4298

Commonwealth of Virginia.

Appellee.

From the Circuit Court of the City of Chesapeake

Upon consideration of the record and the pleadings filed in this case, the Court
finds that assignment of error no. 1 is insufficient as it does not address any ruling of the circuit
court in Travis J. Marron v. Commonwealth of Virginia, Circuit Court No. CL 17-4298, from
which an appeal is sought. Accordingly, the petition for appeal is dismissed as to that
assignment of error. Rule 5:17(c)(l)(iii).
Upon further consideration whereof, the Court refuses assignment of error no. 2.
Justice McCullough took no part in the resolution of the petition.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

<58^
Deputy Clerk

' £

"APP/f/ODxy
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF CHESAPEAKE
TRAVIS J. MARRON, No. 1091504
Petitioner
v.

Civil No. CL17-4298

!

COMMONWEALTH OF VIRGINIA,
Respondent

FINAL ORDER
Upon mature consideration of Travis Jackson Marron’s “Motion to Vacate” (Motion), the
motion of the Attorney General, and the authorities cited therein, a review of the records in Case
Nos. 97-3158 through 97-3161 and Case No. CLOO-896, which are hereby made a part of the record.
in this matter, this Court finds as follows:
Travis Jackson Marron (the Petitioner) was charged with capital murder, robbery and two
related firearm charges. He pled guilty to first-degree murder, robbery .and the related firearm
charges, Case Nos. 97-3158 through 97-3161. On November 2,1998, he was sentenced to 75 years
on the murder charge (28 years suspended), 25 years for the robbery (25 years suspended), 3 years
for the use of a firearm in the commission of murder charge and 5 years for the use of a firearm in
the commission of robbery charged This Court entered judgment on December 7, 1998 imposing
those sentences. The Petitioner did not appeal.

.

.

Procedural History
On December 16, 1999, the Petitioner, proceeding pro se, executed a habeas petition, in
which he alleged: he was entitled to a new trial because both of his parents had not been notified of

The Petitioner asserts that his indictments were void ab initito because the indictment was not
returned in open court and duly recorded in the order book. His Motion is untimely under Rule 1:1,.
and it is also without merit.2
The Petitioner Waived any Error Regarding
Indictment bv the Grand Jury
The Petitioner waived any claim he might have had concerning the adequacy of the
indictments by not raising it at trial and pursuing it on appeal. The Petitioner correctly notes the
Virginia Supreme Court in Simmons v. Commonwealth. 89 Va. 156, 15 S.E. 386 (1892) vacated
the defendant’s conviction in that appeal because the record.did not affirmatively demonstrate, by
an entry in the order book, that the indictment had been returned by the grand jury into open court..
Id. at 158, 15 S.E. at 387. (Motion at 7). The Petitioner, however, fails to appreciate that the
defendant in Simmons had objected at trial and pursued relief by direct appeal - whereas the
Petitioner waited more than 18 years and sought relief by motion to vacate, which is a collateral
challenge rather than a direct remedy. Significantly, subsequent to Simmons, the Virginia Supreme
Court limited the holding in Simmons to assertions of error raised on direct appeal. See Hansonw
Smyth, 183 Va. 384, 390,32 S.E.2d 142,144 (1944) (alleged failure to return an indictment in open
court and have it recorded in the order book "may be attacked only directly by an appeal from the
judgment of conviction” and not collaterally).
The prisoner in Hanson asserted the same argument as the Petitioner — that his sentence was
void because "the record fail[ed] to show that the indictment upon which he was tried, convicted
i

and sentenced . . . was returned by the grand jury into open court and their finding properly

2 Marron has also file another Motion to Vacate in this Court challenging his convictions on a
different ground. Case No. CL17-4297.

3

recorded.”

183 Va. at 389, 32 S.E.2d at 144 (citations omitted). Nevertheless, the Virginia

Supreme Court distinguished its prior cases and rejected Hanson’s assertion that his conviction was
void.
In the first place ... in the absence of a constitutional provision that a felony may be
prosecuted only by indictment, a judgment of conviction is not amenable to a
collateral attack in a habeas corpus proceeding on the ground that there is no
proper record of the fact that the grand jury found an indictment against the
accused. Such irregularity or defect may be attacked only directly by an appeal
from the judgment of conviction.
Since the statutory requirement for an indictment in the present case is not
jurisdictional, the failure of the record to show affirmatively that the indictment was
returned into court by the grand jury is not such a defect as will render null and void
the judgment of conviction based thereon.
183 Va. at 390-91, 32 S.E.2d at 144 (citations omitted, emphasis added). See Council v. Smyth,
201 Va. 135, 139, 109 S.E.2d 116, 119 (1959) (“Since a person charged with a felony may waive
indictment by a grand jury and elect to be tried on a warrant or information, the requirement of an
indictment is not jurisdictional.”); see also Thornhill v. Smyth, 185 Va. 986, 989-90, 41 S.E.2d 11,
13 (1947) (violations of statutory rights will not be noticed in collateral attacks). Accordingly,
•

assuming the Petitioner’s allegation that the indictments were not properly returned in open court
and recorded as “true bills” is true, he waived the alleged error.by not raising it at trial and pursuing
it on appeal. See Epps v. Commonwealth. 66 Va. App. 393, 400, 785 S.E.2d 792, 795 (2016)
(“because an indictment may be waived, it is not jurisdictional.... [and] the failure of the record to
show affirmatively that the indictment was returned into court by the grand jury is not such a defect
as will render null and void the judgment of conviction based thereon.”’) (quoting Hanson, 183 Va.
at 390-91, 32 S.E.2d at 144), affd, 293 Va. 403, 799 S.E.2d 516 (2017) (holding failure to object
until after conviction waives defects to manner in which indictment was returned).

4

• . *

Yeatts v. Murray. 249 Va. 285,455 S.E.2d 18 (1995); Arey v. Peyton. 209 Va. 370,164 S.E.2d 691
(1968).
For the reasons stated, it is ADJUDGED and ORDERED that Marron’s Motion is hereby
DENIED and DISMISSED as untimely under Rule 1:1.

Pursuant to Rule 1:13, the Court

dispenses with the endorsement of the Petitioner, and this matter is stricken from the docket of this
Court.
•The Clerk is directed to forward a certified copy of this Final Order dismissing Marron’s
Motion to the Petitioner and Michael T. Judge, Senior Assistant Attorney General.
Entered this

By:
Judge
I ask for this:
CERTIFIEWO ||A TRUE COPYy
OF THE REG
SNOFF, CLERK Sy
A ALAN P J
PI
;|RC

MICHAEL T. JUDGEy- VSB No. 30456
Senior Assistant Attorney General
Office of the Attorney General
202 N. Ninth Street
Richmond, Virginia 23219
(804) 786-2071; FAX (804) 371-0.151
oagcriminaIlitigation@oag.state.va.us
Counsel for Respondent

depuWclerk>

\

6

Additional material
from this filing is
available in the
Clerk's Office.

